<html>
<title> - THE IMAGE OF AGING IN MEDIA AND MARKETING</title>
<body><pre>[Senate Hearing 107-797]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-797
 
               THE IMAGE OF AGING IN MEDIA AND MARKETING
=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                           SEPTEMBER 4, 2002

                               __________

                           Serial No. 107-35

         Printed for the use of the Special Committee on Aging









                           U.S. GOVERNMENT PRINTING OFFICE
83-476                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           JOHN ENSIGN, Nevada
DEBBIE STABENOW, Michigan            CHUCK HAGEL, Nebraska
JEAN CARNAHAN, Missouri              GORDON SMITH, Oregon
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator John Breaux.........................     1
Prepared statement of Senator Larry E. Craig.....................    75

                           Panel of Witnesses

Doris Roberts, Emmy Award Winning Actress, ``Everybody Loves 
  Raymond,'' Los Angeles, CA.....................................     3
Robert N. Butler, M.D., President and Chief Executive Officer, 
  International Longevity Center--USA, New York, NY..............    12
Robert Snyder, Senior Partner, J. Walter Thompson Specialized 
  Communications, Mature Market Group, Dallas, TX................    24
Paul Kleyman, Editor, Aging Today, American Society on Aging, San 
  Francisco, CA..................................................    66
Dr. Becca Levy, Professor, Department of Epidemiology and Public 
  Health, Yale University, New Haven, CT.........................    67

                                 (iii)

  


               THE IMAGE OF AGING IN MEDIA AND MARKETING

                              ----------                              


                      WEDNESDAY, SEPTEMBER 4, 2002

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. John Breaux 
(chairman of the Special Committee on Aging) presiding.
    Present: Senators Breaux, Carper, Stabenow, and Craig.

       OPENING STATEMENT OF SENATOR JOHN BREAUX, CHAIRMAN

    The Chairman. The Senate Committee on Aging will please 
come to order. Good morning, everyone. We are delighted that 
you all are attending our hearing this morning, the hearing on 
the image of aging in our media and our entertainment 
industries, dealing with image of aging, both in the media as 
an entertainment mode, as well as in the marketing of these 
entertainment programs.
    I would like to thank all of our witnesses for being with 
us. I know a number have traveled a good distance to be here 
this morning. I want to especially thank Doris Roberts who we 
had the pleasure of meeting with last night. She is a special 
person who won an Emmy last year and has also been nominated 
for her second Emmy Award this year for her performances in the 
television series ``Everybody Loves Raymond,'' which I will add 
I love as well, as do millions of Americans.
    I also want to thank Senator Craig who will be joining us 
in just a moment to talk about the issue of ageism in the 
media. We have all sat through films in which a 60-something 
leading man is paired together with a 20-something leading 
lady. We have also seen older people mocked and younger people 
celebrated for the purposes of selling a product.
    It is clear that entertainment, marketing and news 
industries value youth. What this hearing will address today is 
the fact that often the media's obsession with youth comes at 
the expense of older Americans. In fact, 75 percent of older 
consumers are dissatisfied with the marketing efforts that are 
directed at them, and often even avoid buying products whose 
ads are negative and stereotypical.
    In the quest to target youth, the media and the marketing 
industries ignore the purchasing power and the preferences of 
millions of American baby boomers and seniors across our 
country, the population that incidentally controls about three-
fourths of the wealth of our nation.
    Statistics are disturbing from what our committee has 
learned. As an example, adults 65 and older comprise 13 percent 
of the U.S. population, but only 2 percent of the characters on 
prime time television. An example further is that 77 of the 122 
prime time television series did not employ a single writer 
over the age of 50. Also, less than 10 percent of today's 
advertising in our media focuses on people over 50, although 
this is a group by the year 2040 will be 40 percent of the 
entire population of the United States of America.
    Also, 50 and over adults buy 41 percent of all the new cars 
and 48 percent of all the luxury automobiles. Today 50-plus 
adults represent 80 percent of all luxury travel and spend 74 
percent more on a typical vacation than Americans between the 
ages of 18 and 49. Older consumers, for example, are also 
spending three times the national average on health care 
products and services.
    Many of the problems that older Americans face today are 
rooted in the fact that our society simply, I think, does not 
value older Americans as it should. As our witnesses will 
discuss today, negative images of aging in print, on 
television, and on the big screen affect how older Americans 
themselves prepare for their retirement, spend their money, 
maintain their physical health and interact with their family 
and their friends.
    Just as it is wrong to stereotype and discriminate against 
people because of their race or their religion or their gender, 
so too is it wrong to stereotype and discriminate against 
people simply because they are older. Only through raising this 
awareness, this public awareness of the problem of ageism in 
the media, can we begin to address the greater societal 
implications of our aging population.
    Now is the time to embrace aging and recognize the ways in 
which Americans of all ages are redefining aging and working to 
eliminate ageism and discrimination. I look forward to all of 
our witnesses commenting on these matters this morning.
    We are delighted to welcome all of our panel of witnesses, 
and first, as I indicated, in referring to Ms. Doris Roberts, 
she is very familiar to us in her roles on television, in the 
media, on the big screen, Emmy Award winner, and I learned last 
night a very active person, not only on the screen, but also in 
this subject that we are talking about today. We thank her very 
much for taking the time right in the middle of shooting 
``Everybody Loves Raymond'' to come all the way to this coast 
to share with us her thoughts, and Ms. Roberts, we welcome you 
and glad to hear from you.

    STATEMENT OF DORIS ROBERTS, EMMY AWARD WINNING ACTRESS, 
          ``EVERYBODY LOVES RAYMOND,'' LOS ANGELES, CA

    Ms. Roberts. Thank you. Mr. Chairman, members of the 
committee, thank you very much for inviting me to talk with you 
about ageism. I am in my seventies, at the peak of my career, 
at the height of my earned income, and my tax contributions, I 
might add. When my grandchildren say that I rock, they are not 
talking about a chair.
    Yet society considers me discardable. My peers and I are 
portrayed as dependent, helpless, unproductive and demanding 
rather than deserving. In reality, the majority of seniors are 
self-sufficient middle-class consumers with more assets than 
most young people and the time and talent to offer society.
    This is not just a sad situation, Mr. Chairman. This is a 
crime. In the next 25 years, more than 115 million Americans 
will be 50 and over. They will become the largest older 
population in history. I am here to urge you to address the 
devastation, cost and loss that we as a nation suffer because 
of age discrimination.
    Age discrimination negates the value of wisdom and 
experience, robs us of our dignity and denies us the chance to 
continue to grow, to flourish, and to become all that we are 
capable of being. We all know that medical advances have 
changed the length and the quality of our lives today, but we 
have not, however, changed our attitudes about aging or 
addressed the disabling myths that disempower us.
    I would like the word ``old'' to be stricken from our 
vocabulary and replaced with the word ``older.'' My 
contemporaries and I are denigrated as ``old,'' old coots, old 
fogies, old codgers, old geezers, old hags, old timers and old 
farts.
    In truth, the minute you are born, you are getting older, 
and the later years can be some of life's most productive and 
creative. For the last 100 years, the average age of the Nobel 
Prize winner is 65. Frank Gehry designed Seattle's hip new rock 
museum at the age of 70. Georgia O'Keefe was productive way 
into her eighties. Add to the list Hitchcock, Dickens, 
Bernstein, Fosse, Wright, Matisse, Picasso and Einstein, just 
to mention a few people who produced some of their best work 
when they would be considered over the hill by current 
standards.
    The entertainment industry, these image makers, are the 
worst perpetrators of this bigotry. We must change the negative 
stereotypes of aging that exist in the media, and when I was a 
young woman, some of the most powerful and popular actresses 
were women way in their forties, women such as Joan Crawford, 
Bette Davis, Katherine Hepburn and Barbara Stanwyck, who 
continued to work, getting better and better in their craft as 
they got older, and many of my friends, talented actresses in 
the 40 to 60-year-old range, are forced to live on unemployment 
or welfare, because of the scarcity of roles for women in that 
age bracket.
    A Screen Actor Guild's employment survey showed that there 
are three times as many roles for women under 40 as there are 
for women 40 years old and older, even though 42 percent of 
Americans are older than 40. This is why some of my 
spectacularly talented actress friends have been forced into 
humiliating positions of borrowing money to just meet their 
mortgage payments and health insurance or begging me to see if 
there is a tiny part on ``Everybody Loves Raymond.''
    It also explains why younger and younger actresses are 
visiting plastic surgeons; actresses in their 20's are getting 
Botox injections to prevent wrinkles from forming. Women start 
getting tummy tucks and face lifts in their thirties to 
forestall the day when the phone stops ringing.
    When a woman hits the age of 40 in Hollywood, executives 
think she is too old. Well, I have got news for them. I have 
been fortunate to be one of a handful of actresses who has 
continued to work throughout my career, but it has not been 
easy. When I was in my forties, I heard of a great part on a 
new series called ``Remington Steele.'' But I was not 
considered for it because I was thought to be too old, and 
because I was very persistent and knew the casting director, I 
read for it, and I got it.
    The roles for women my age frequently show seniors in 
insulting and degrading ways. They make cartoons of the 
elderly. I recently turned down a role in a movie for me to 
play a horny grandmother who spewed foul language, exposed 
herself and chased after young boys. Well, I turned that one 
down. But I know someone who took that part.
    There is a coalition to protect the way every other group 
is depicted in the media, but no one protects the image of the 
elderly. Hollywood clearly is clueless when it comes to 
understanding today's seniors. They are blind to the advances 
in medicine and self-care, and the increases in personal income 
have made us a force to be reckoned with and a market to be 
exploited.
    I mean 20 years ago, it was accurate to show a senior 
coming in for a check-up dragging his oxygen tank. Today, he 
would be dragging his golf clubs. Twenty years ago, older 
experienced writers past the age of 50 were getting 60 percent 
of the jobs. Today, it has shrunk to 19 percent. Six months 
ago, I developed a project with an Emmy Award winning writer/
producer. When it came time to pitch the project to the 
studios, he refused to come with me. When they see my gray 
hair, honey, we are finished, he said. Why do they think that a 
man in his fifties does not have anything to say about love or 
youth or relationships?
    He has a lot to say if anyone would listen. A few years 
later, rather earlier I should say, I pitched a project to a 
network and got a very enthusiastic response. The executives 
wanted me to take it directly into development, which was very 
exciting, but once they found out that our producer/writer 
attached to the project was a woman in her fifties, they 
stopped returning my phone calls.
    Yes, there is energy and excitement and enthusiasm in the 
young, but there is not any less among those in their senior 
years unless society is successful in its campaign to rob us of 
those qualities, to diminish us. We older people control 77 
percent of the country's disposable income, yet the 
entertainment industry has made age something to be feared. It 
is a small comfort to know that those who have perpetrated 
ageism will soon face it themselves.
    As General McArthur once wrote, ``Youth is not a time of 
life; it is a state of mind. Nobody grows old by merely living 
a number of years. People grow old by deserting their ideals. 
Years wrinkle the skin, but to give up enthusiasm wrinkles the 
soul. Worry, doubt, self-distrust, fear and despair, these are 
the long, long years that bow the head and turn the growing 
spirit back to dust. You are as young as your faith and as old 
as your doubt, as young as your self-confidence, as old as your 
fear.''
    Mr. Chairman, I address you today as a person young in 
spirit, full of life and energy, and eager to stay engaged in 
the world and fight ageism, the last bastion of bigotry. It is 
no different from sexism, racism or religious discrimination. 
It is a tyranny that suppresses us all at any stage and serves 
no one.
    As my late husband, the writer William Goyen, said, when we 
see people who are infirmed, handicapped or older, we turn away 
from them, we shun them, and take away their light. Today, the 
image makers have taken away our light, and I am here to urge 
you bring it back. Thank you.
    [The prepared statement of Ms. Roberts follows:]
    [GRAPHIC] [TIFF OMITTED] 83476.001
    
    [GRAPHIC] [TIFF OMITTED] 83476.002
    
    [GRAPHIC] [TIFF OMITTED] 83476.003
    
    [GRAPHIC] [TIFF OMITTED] 83476.004
    
    [GRAPHIC] [TIFF OMITTED] 83476.005
    
    [GRAPHIC] [TIFF OMITTED] 83476.006
    
    The Chairman. Ms. Roberts, thank you very, very much, for 
an outstanding statement. You certainly are full of life and 
your continued involvement in this subject really offers a 
great deal of hope to older Americans and really to all 
segments of our society who are aware of the problem, not just 
older Americans, but baby boomers as well, who need to realize 
the message you presented to the Congress today.
    We want to welcome now--we will take testimony from our 
other witnesses--Dr. Robert Butler, who, of course, is 
President and CEO of International Longevity Center and also 
Professor of Geriatrics at Mount Sinai. Dr. Butler, glad to 
have you back.

   STATEMENT OF ROBERT N. BUTLER, M.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, INTERNATIONAL LONGEVITY CENTER--USA, NEW 
                            YORK, NY

    Dr. Butler. Thank you. I am very glad to be back here. I am 
delighted that you have decided to hold such an important 
hearing on ageism, the stereotyping and discrimination against 
people simply because they are old, just as racism and sexism 
accomplishes this with skin color and gender.
    What I would like to do is submit for the record my longer 
statement and just briefly comment upon first the extraordinary 
range of discriminatory practices that occur in housing, health 
care--that I have to say with great regret as a physician, that 
it happens in my own field--and other services, in employment, 
and in a topic you have addressed very effectively, elder 
abuse, which is so painful to see on the American scene.
    I also would comment on the fact that you will hear about 
the effects of ageism directly on health itself from Dr. Becca 
Levy, a little bit later this morning. Of course, happily, you 
are addressing the issues of imagery, and I wanted to take a 
moment to point out that it does not have to be negative.
    The chart on the right, a negative image of aging, is the 
``greedy geezers,'' which was the cover of a magazine, some 
years back, but not long ago, but on the left is an example of 
how one can portray older people, including older women, in 
very positive ways. This is Kitty Carlisle Hart, a very 
distinguished New Yorker, theatrical personality, who for many 
years was the head of the Humanities Council in the State of 
New York, and she is 92 years of age. This derives from the 
wonderful book, Wise Women, by a wonderful American 
photographer, Joyce Tenneson.
    Now, I would like to turn directly and in a very practical 
way, to some of the things we can do to deal with ageism? First 
is certainly educating the public, and one of the things we can 
do in the public schools is address the issues of human 
development so that children see that life unfolds and that old 
age has its special dignity and purposes.
    We can also acquaint journalists more effectively by 
immersion courses such as we have been fortunate to provide at 
the International Longevity Center with funding from the Knight 
Foundation, the New York Times Foundation, immersion meetings 
with journalists to help instruct them on some of the issues 
related to aging.
    Second, if we could reduce the frailty and dementia, we 
would make a huge step forward, and that is why I strongly 
recommend the continuing support of the National Institutes of 
Health and the National Institute on Aging. It would be 
wonderful to make Alzheimer's disease a memory of the past, 
something that we would, in fact, conquer.
    Third is we must improve lifestyles in this country. 
Unfortunately, we do not have as healthy a population as we 
should, and George Burns, the wonderful comedian at 100 years 
of age, said that people can actually carry out the old 
person's act, they can actually allow themselves to 
deteriorate, and this does not make an effective presentation 
to the world at large. We can teach children early to address 
greater lifestyle improvements.
    As an effort in this direction, the International Longevity 
Center brings together some of our nation's finest scientists 
to address health issues. For example, maintaining healthy 
lifestyles. We can all initiate healthy lifestyles everyday, 
but how do we maintain them? Also we held a comparable workshop 
on achieving cognitive vitality. What can we do in the way of 
activities and actions which can help us maintain our own 
intellectual functioning?
    We not only publish these, but they also appear in 
mainstream journals such as the Proceedings of the Mayo Clinic, 
which, for instance, reaches over 150,000 physicians to help 
them better understand how to advise their patients.
    Fourth is the economic approach, not only in the ways in 
which Ms. Roberts beautifully demonstrated in terms of 
productive, responsible, active aging, of holding on to jobs or 
volunteering, but also the realization she also commented upon 
that finally older persons are becoming more attractive to 
business. In fact, the Japanese refer to the ``silver 
industries''--life insurance, health, pharmaceuticals, various 
other industries that do a great deal of business with older 
people.
    Fifth, and this is very painful for me, we must change the 
medical culture of ageism. This is how I first became 
interested and first came to introduce the term. As a medical 
student, to my shock older professors and others referred to 
older people as ``crocks,'' and there are many other terms 
which are in my testimony which I will not repeat here. We 
clearly need to have Congress address the creation of a cadre 
of teachers in every one of our 145 medical schools so that we 
can have properly and effectively teaching physicians. There is 
such a program called the Geriatric Academic Career Award which 
should be expanded.
    Sixth is we must support longitudinal studies of healthy 
aging.
    Seventh, we must enforce the Age Discrimination in 
Employment Act.
    Eighth, we must ask the question, will Madison Avenue grow 
up before it grows old or will it grow old before it grows up?
    Finally, we really must address the entire culture's 
attitude. We must see a transformation of the way in which we 
regard the stages of life including late life. Thank you very 
much.
    [The prepared statement of Dr. Butler follows:]
    [GRAPHIC] [TIFF OMITTED] 83476.007
    
    [GRAPHIC] [TIFF OMITTED] 83476.008
    
    [GRAPHIC] [TIFF OMITTED] 83476.009
    
    [GRAPHIC] [TIFF OMITTED] 83476.010
    
    [GRAPHIC] [TIFF OMITTED] 83476.011
    
    [GRAPHIC] [TIFF OMITTED] 83476.012
    
    [GRAPHIC] [TIFF OMITTED] 83476.013
    
    [GRAPHIC] [TIFF OMITTED] 83476.014
    
    [GRAPHIC] [TIFF OMITTED] 83476.015
    
    [GRAPHIC] [TIFF OMITTED] 83476.016
    
    The Chairman. Once again, thank you, Dr. Butler, for being 
with us and for your contribution. Next, we would like to hear 
from Mr. Robert Snyder, who has come to us from Dallas, who is 
a senior partner at the J. Walter Thompson Specialized 
Communications with the Mature Market Group in Dallas, and Mr. 
Snyder, we are pleased to have your statement.

STATEMENT OF ROBERT SNYDER, SENIOR PARTNER, J. WALTER THOMPSON 
  SPECIALIZED COMMUNICATIONS, MATURE MARKET GROUP, DALLAS, TX

    Mr. Snyder. Thank you very much, Senator. Before I begin my 
testimony, I would like to direct your attention to the video I 
would like to play to show you firsthand some good and some bad 
of ads that are happening in this country as we speak.
    The Chairman. Tell me again what is this?
    Mr. Snyder. This video represents some commercials that are 
being produced in this country by the media and advertising 
that you will first see ads that are negative ageism or filled 
with ageism, and then finally you will see some ads that are 
really positive. So we wanted to show both sides of the story, 
so if we could roll the tape.
    The Chairman. OK.
    [Video presentation.]
    The Chairman. OK. Mr. Snyder, what does this show us?
    Mr. Snyder. Well, first of all, it shows us that ageism is 
the last socially condoned bigotry in our country. Awareness 
about the problem is growing, but for the most part, our 
awareness of this problem is in its infancy. The Mature Market 
Group, a part of J. Walter Thompson Worldwide, sees many 
advertisers and their agencies overlooking the largest, 
wealthiest consumer group in a collective worshipful attitude 
toward youth. Stereotyping older Americans is tolerated by many 
industries in ways that would never be allowed for any other 
group in our country.
    The videotape provides a snapshot of how older adults are 
portrayed in advertising today. While humor is a wonderful 
sales tool, the Coke, Midas and Conseco ads over here used 
humor to sell a product at the expense of a segment of our 
population. Dignity and respect for elders in advertising is 
limited. Artists and writers with limited life experiences meet 
deadlines by creating ads that contain caricatures and 
stereotypes.
    Consequently, stereotypes are perpetuated. This was clearly 
shown in the Butterfinger, Midas and Caprisun commercials. The 
image of a diminished older body is also a significant part of 
the stereotype portrayed for older Americans. However, we know 
healthy lifestyle choices and better health care provide for a 
healthier body at any age. The Lipitor and Martex ads which are 
over here are a testament to this notion.
    Finally, much of current advertising has viewers believing 
that fun and enjoyment of life is limited to those under 40, as 
was communicated by the Zima ad. While seniors often appear in 
pharmaceutical, insurance and financial advertising, the 
absence of seniors from other categories is significant. Ads 
that create the full context of seniors' lives do resonate with 
all generations as shown in the Allstate and Publix ads.
    Since the founding of J. Walter Thompson in 1864, 
advertisers have been looking for effective ways to communicate 
with the target market. The discovery by advertisers that 
consumers could be understood better through the use of 
demographics and thus more accurately targeted by advertising 
communications would prove to be the key to all advertising in 
the final 50 years of the 20th century.
    I would propose, however, that years of advertising and 
marketing based on demographics has created stereotypical 
images of this segment of the population, which are so 
ingrained into our thinking that it is difficult to see that 
the problem of ageism even exists.
    The resulting status of marketing and advertising in the 
United States can be summarized as follows: we have all been 
placed into buckets according to age, income and generation. 
The advertising world is dominated by youth, and companies with 
products to sell are in general mesmerized by the need to 
capture the youth market.
    Those over the age of 50 are, for the most part, labeled as 
spillover according to media buyers. The topic of aging is 
durably encapsulated in a layer in myths in our society and 
includes a confusing blend of truth and fancy. These single 
phrase assertions usually have some link to reality, but are 
always in significant conflict with recent scientific data:
    You get old; you get sick. You get old; you lose interest 
in intimacy. You get old; you can't understand technology. You 
get old; you have no social life. The list goes on.
    If we accept these myths and others like them, that act 
itself becomes ageism in practice. It is our belief that the 
public in general and advertising people in particular are 
programmed to think that aging is a bad thing, and that once 
you are past 40, you are over the hill and out of the game.
     The Mature Market Group and Seniors Research Group 
conducted a study of adults 62-plus to determine how a person's 
life experiences shape their core values. Looking at human 
behavior through values-based research is not only logical but 
it is also statistically accurate. The key difference between 
this segmentation and others based on life stage or 
demographics is that values do not shift, while life stage and 
demographics do.
    Finally, the potential of values-based research is such 
that marketers can truly begin marketing to an ageless market. 
Why? Because values cut across all age groups. Values are 
indeed age blind.
    Future advertising must stem from a foundation that is 
timeless and ageless. As individuals, we need to refuse to 
stereotype the mature audience. As a society, we need to 
appreciate the experience, wisdom and contributions they have 
made. Let us harness this power and let that energy help sell 
our products.
    Let us begin with a national public service campaign to 
raise awareness of ageism and help the generations appreciate 
one another. I would like to conclude by expressing the 
sentiment of many seniors with whom I have spoken, and is 
demonstrated by this poster over here: What you are, I was. 
What I am, you will be. Assume nothing. Expect anything. 
Listen, learn; then we can talk.
    Thank you.
    [The prepared statement of Mr. Snyder and related materials 
follow:]

[GRAPHIC] [TIFF OMITTED] 83476.017

[GRAPHIC] [TIFF OMITTED] 83476.018

[GRAPHIC] [TIFF OMITTED] 83476.019

[GRAPHIC] [TIFF OMITTED] 83476.020

[GRAPHIC] [TIFF OMITTED] 83476.021

[GRAPHIC] [TIFF OMITTED] 83476.022

[GRAPHIC] [TIFF OMITTED] 83476.023

[GRAPHIC] [TIFF OMITTED] 83476.024

[GRAPHIC] [TIFF OMITTED] 83476.025

[GRAPHIC] [TIFF OMITTED] 83476.026

[GRAPHIC] [TIFF OMITTED] 83476.027

[GRAPHIC] [TIFF OMITTED] 83476.028

[GRAPHIC] [TIFF OMITTED] 83476.029

[GRAPHIC] [TIFF OMITTED] 83476.030

[GRAPHIC] [TIFF OMITTED] 83476.031

[GRAPHIC] [TIFF OMITTED] 83476.032

[GRAPHIC] [TIFF OMITTED] 83476.033

[GRAPHIC] [TIFF OMITTED] 83476.034

[GRAPHIC] [TIFF OMITTED] 83476.035

[GRAPHIC] [TIFF OMITTED] 83476.036

[GRAPHIC] [TIFF OMITTED] 83476.037

[GRAPHIC] [TIFF OMITTED] 83476.038

[GRAPHIC] [TIFF OMITTED] 83476.039

[GRAPHIC] [TIFF OMITTED] 83476.040

[GRAPHIC] [TIFF OMITTED] 83476.041

[GRAPHIC] [TIFF OMITTED] 83476.042

[GRAPHIC] [TIFF OMITTED] 83476.043

[GRAPHIC] [TIFF OMITTED] 83476.044

[GRAPHIC] [TIFF OMITTED] 83476.045

[GRAPHIC] [TIFF OMITTED] 83476.046

[GRAPHIC] [TIFF OMITTED] 83476.047

[GRAPHIC] [TIFF OMITTED] 83476.048

[GRAPHIC] [TIFF OMITTED] 83476.049

[GRAPHIC] [TIFF OMITTED] 83476.050

[GRAPHIC] [TIFF OMITTED] 83476.051

[GRAPHIC] [TIFF OMITTED] 83476.052

[GRAPHIC] [TIFF OMITTED] 83476.053

[GRAPHIC] [TIFF OMITTED] 83476.054

[GRAPHIC] [TIFF OMITTED] 83476.055

[GRAPHIC] [TIFF OMITTED] 83476.056

    The Chairman. Thank you very much, Mr. Snyder. We are going 
to have some questions about those ads, I know. I want to just 
recognize for the record, we have been joined by our senior 
ranking Republican member of the committee, Senator Larry 
Craig, and by our good friend and colleague, Senator Debbie 
Stabenow. I am glad to have them here.
    Mr. Paul Kleyman, we are anxious to hear your testimony, 
with the American Society on Aging in San Francisco. Thank you 
for being with us.

   STATEMENT OF PAUL KLEYMAN, EDITOR, AGING TODAY, AMERICAN 
              SOCIETY ON AGING, SAN FRANCISCO, CA

    Mr. Kleyman. Well, first, let me thank you, Senators Breaux 
and Craig and members of the Special Committee on Aging, and 
especially your terrific staff, for shining a spotlight on this 
issue. I do want to make clear that my comments this morning 
are strictly my own views and not representative of the 
American Society on Aging or the Journalist Exchange on Aging 
for which I am national coordinator.
    I believe that ageism is one of the last remaining 
``ism's'' that can be openly expressed in our society. Whether 
they are meant to be playful or pointed, a headline that 
declares ``Geezer Nation,'' or an editor's reference to older 
people as ``prune faces'' have no place in the news or in news 
rooms.
    Nowhere is ageism more evident than in the business 
coverage of the media itself. Newspapers repeatedly state that 
a television network's bottom line is most heavily damaged when 
its programs attract older audiences. In fact, the term ``old 
audience'' appeared and highlighted part of an article that ran 
in the New York Times only about 2 years ago, or should I say 
low-lighted the article?
    Not long after that, The Wall Street Journal stressed in an 
article, ``In the past 3 years the median age of NBC's audience 
has risen to 45 from 41, a bad omen for advertising revenues.''
    This March, an Associated Press article ran across the 
country about how ABC was wooing David Letterman to replace Ted 
Koppel's ``Nightline.'' The article noted that Letterman had 
``long been unhappy with CBS' older prime time audience.'' All 
of these jokes and denigrating comments have their roots in the 
fact that television advertisers pay far less for every 1,000 
older viewers that a program attracts than those in the coveted 
18-35 age group. That is a program can win its rating's war but 
still be considered a loser because its audience is older. It 
will make less money.
    Let me ask you to consider the phrase ``old audience'' for 
a moment. If a newspaper ran an article today that said CBS had 
to recover from having a black audience or a woman's audience, 
this nation would be in an uproar. It is not long ago in the 
history of racism that real estate interests discouraged home 
sales to African Americans in certain areas, because they said 
doing so would bring down the property values.
    Well, that was a terrible self-perpetuating myth, and I 
believe that the continued devaluing of older people is 
tantamount to media redlining by age. Now, news organizations 
are set on attracting younger audiences, and there is nothing 
wrong with that, except that these efforts often come with an 
irrational bias against both older readers and older 
journalists.
    Let me give you two examples, one of each. One reporter at 
a national news organization told me that until a couple of 
years ago, he dealt with an editor who wanted to minimize 
photos of older people in stories. This editor thought it a big 
joke to call older citizens prune faces, and the news staff 
referred to this as the editor's ``no prune-face rule.''
    Another example: a prominent study of economic forces in 
the news commended news executives who ``unceremoniously ax the 
old warhorses to make way for something new.'' At least 
sometimes, though, experience does count, such as after the 
terrorist attacks of last September 11. A former producer at 
ABC news noted in a recent article that ``the only time older 
people are given their due respect is when it is time for 
experts, experts, experts.''
    She said that such a moment for older experts came after 9/
11. At that time of national crisis, Americans wanted to hear 
from those with knowledge, seasoned by wisdom and experience.
    What about at newspapers? A study titled ``Age and the 
Press'' that was released this year by Harvard University's 
Shorenstein Center on The Press Politics and Public Policy 
stated that ``in their market strategies, newspapers are paying 
nearly no interest to readers in the upper middle ages, in 
spite of the fact that this is the fastest increasing group of 
readers.'' That means the aging baby boomers are being 
dismissed by newspaper marketers.
    Now, I do not want to suggest that the financial issues 
facing the newspaper industry are uncomplicated. However, the 
scapegoating of older people is bad business, and it is poor 
journalism, and it is wrong.
    Before closing, I want to emphasize that there is some good 
news in many American news rooms. I coordinate a group called 
the Journalist Exchange on Aging which was formed about 10 
years ago. In the last 10 years, I have seen a slow but steady 
growth in the number of reporters devoted to the coverage of 
issues in aging, including, by the way, reporters at The New 
York Times and The Wall Street Journal. There is some fine work 
being done there.
    As news organizations aim to secure their economic growth, 
I believe it is also critical for them to look for ways not to 
stunt the growth of their coverage about major social 
developments, especially about the longevity revolution. Thank 
you very much.
    The Chairman. Thank you very much, Mr. Kleyman, and 
finally, but not least, Ms. Becca Levy. Dr. Levy.

     STATEMENT OF DR. BECCA LEVY, PROFESSOR, DEPARTMENT OF 
 EPIDEMIOLOGY AND PUBLIC HEALTH, YALE UNIVERSITY, NEW HAVEN, CT

    Dr. Levy. Mr. Chairman and members of the Senate Special 
Committee on Aging, I appreciate your inviting me to testify on 
a pressing issue, image of aging in media and marketing.
    My research has focused on how the health of older adults 
is affected by negative images of aging that are promoted in 
part by the media and marketing. The particular study I will 
describe to you today found that negative images of aging may 
have an adverse effect on the survival of older adults. Before 
describing the study in more detail, I would like to give a 
brief background to it.
    In a series of earlier experiments, in which older 
individuals were subliminally exposed to aging images in the 
form of stereotypes, we found that compared to those exposed to 
positive stereotypes of aging, those exposed to negative 
stereotypes of aging tended to function worse on a number of 
mental and physical outcomes, such as memory performance and on 
their cardiovascular response to stress.
    Elderly individuals may be particularly vulnerable to the 
effects of negative stereotypes of aging. First, the 
stereotypes are largely acquired before old age, starting in 
childhood when they are not yet directly relevant to the 
individuals exposed to them: as a result, they tend to be 
uncritically accepted.
    By the time old age is reached, the negative stereotypes 
are in place. They have been internalized and reinforced over a 
number of decades, thereby making it difficult to mount a 
psychological defense against them.
    The second reason elderly individuals may be sensitive to 
the effects of negative stereotypes of aging is that as we have 
found in our research, they can operate without awareness, thus 
making it difficult for elders to monitor them.
    Which brings us to our recent finding that I would like to 
share with you. This study funded by the National Institute on 
Aging and the Brookdale Foundation was just published in the 
Journal of Personality and Social Psychology.
    In 1975, when the Ohio Longitudinal Study of Aging and 
Retirement began, most of the residents age 50 and older of 
Oxford, OH were asked whether they agree or disagree with 
questions that measure their images of aging. These self-
perceptions of aging questions included: Do you agree or 
disagree that as you get older, you are less useful?
    Participants were interviewed six times over the 20 years 
of the project. The 660 individuals included in our analyses 
were matched to survival information that we acquired from the 
National Death Index.
    As can be seen in the chart, we found that those who 
expressed a more positive self-perception of aging tended to 
have a survival advantage of 7.5 years over those who expressed 
more negative self-perception of aging.
    That is, when we look at the amount of time it took half of 
the people in each group to die, the difference between the two 
groups was 7\1/2\ years.
    The strength of our finding is demonstrated by those in the 
more positive self-perception of aging group having better 
survival than those in the more negative self-perception of 
aging group, among men as well as women, among those with 
better as well as worse functional health, and among those with 
lower as well as higher education.
    When we adjusted for a number of variables at baseline, 
including age and functional health, we found that those in the 
positive self-perception of aging group still tended to have a 
significant survival advantage over those in the negative self-
perception of aging group.
    We also examined a mechanism by which this process 
occurred. More negative self-perceptions of aging predicted 
reduced will to live, which in turn tended to contribute to a 
shorter lifespan. In other words, those with more negative 
self-perceptions of aging were more likely to consider their 
lives to be ``worthless,'' ``empty,'' and ``hopeless,'' whereas 
those with more positive self-perceptions of aging were more 
likely to select the opposite terms of ``worthy'', ``full,'' 
and ``hopeful.''
    In closing, I should note that although the prevalence of 
negative images of aging is not entirely due to the media and 
marketing, they seem to be the sources that are the most 
persuasive, identifiable, systematic and profit driven. 
Extolling youthfulness while demeaning the old helps to 
generate images that, as our research suggests, may have 
devastating consequences.
    Thank you.
    [The prepared statement of Dr. Levy follows:]
    [GRAPHIC] [TIFF OMITTED] 83476.057
    
    [GRAPHIC] [TIFF OMITTED] 83476.058
    
    The Chairman. Thank you very much, Dr. Levy, and thank all 
the members of the panel, and I just have one or two questions 
and I want my colleagues to have time to ask questions.
    Ms. Roberts, thank you for a very powerful statement. I 
mean one of the things that you said was that the entertainment 
business is one of the worst perpetrators of this bigotry in 
being biased against older Americans, especially women. I mean 
I guess in order to solve the problem, you have to understand 
why the problem exists. So I guess my question to you would be 
why do you think that there is this attitude in Hollywood in 
the entertainment business that somehow having older Americans 
in more prominent roles is bad, I guess, for the bottom line?
    I mean is it because only young people are making those 
decisions and do not understand? I mean I guess the question is 
why do you think it is like that? I mean it was not like that 
always; was it?
    Ms. Roberts. No, not at all. I think you have to address 
the advertising world. I think Madison Avenue, the image maker, 
tells you not only what to watch but what size you should be, 
like a size zero or minus, all of which is so negative on every 
possible level.
    The Chairman. Do they think that is what the general public 
wants to see? I mean I quite frankly see some of the ads of 
some of the size women that you are speaking to, and I think 
they all look sick, but I mean apparently they must be selling 
something that way.
    Ms. Roberts. There is no photograph in any magazine that I 
can think of other than AARP that shows a woman over the age of 
45 unless she is selling Depends or Viagra. [Laughter.]
    Am I not correct about that?
    Mr. Snyder. Correct. That is correct.
    Ms. Roberts. I think it starts there. They determine what 
shows they would like to see on television, and the networks 
make their money in advertising, and so it comes down to their 
pocketbooks.
    The Chairman. You mentioned friends and colleagues of 
yours, like Joan Crawford and Barbara Stanwyck, and real 
outstanding women actors, who are seen in very positive roles, 
you know, well into their careers. But it seems like that has 
changed; has it not?
    Ms. Roberts. Totally. I mean in the movies that I can think 
of where Michael Douglas is married to Gwenyth Paltrow or Sean 
Connery is married to Catherine Jones, who is Michael Douglas' 
wife actually, it is wrong. I mean a 65- year old man does not 
have to have a 30-year old wife, although they might prefer it, 
only because they have been taught to think that way. I am at 
the peak of my life, and I am in my seventies. It is so wrong 
to dismiss us, to discard us. I mean they like to airbrush us 
out of existence.
    The Chairman. You know one of the things that I pointed out 
in the opening statement, I say to my colleagues, you know, it 
may be because of the writers. I mean the people who produce 
the stuff, I mean stuff meaning in a very fine sense of the 
word. Seventy-seven out of the 122 prime time TV series did not 
employ a single writer over the age of 50. So if you have the 
writers who are all younger than we are, you know, it is kind 
of an understandable reason why they are producing stuff that 
does not incorporate older Americans in those roles.
    Well, Doris, thank you so very much.
    Ms. Roberts. I can tell you that if you were in my 
business, you would be out of a job. [Laughter.]
    Would that not be terrible?
    The Chairman. No job security there or here probably. 
[Laughter.]
    Senator Craig, questions.
    Senator Craig. Well, he has more hair, Doris, and it is 
darker. So I would have been out of a job earlier.
    Ms. Roberts. Absolutely.
    Senator Craig. Either that or I would have had a little 
tucking.
    Ms. Roberts. A little tuck.
    Senator Craig. Little dye.
    Ms. Roberts. Of course.
    Senator Craig. Little planning.
    Ms. Roberts. Is that not shocking that people, young women 
in their twenties and thirties, men as well, are having Botox 
put all over their faces and facelifts because they are afraid 
of getting older at that tender age. That is----
    Senator Craig. Well, what they do not understand and what 
they are missing in this whole communications effort is 
something that I did last Monday that no 20-year-old or 30-
year-old is going to get a chance to do. I picked up a 
granddaughter from her first day in kindergarten and took her 
to McDonald's for lunch, and that was the most rejuvenating 
youthful experience I have had in a long time. Somehow we need 
to communicate to the American people that you are at the prime 
of your life, Doris, and there is this phenomenal abundance in 
life that can come at all ages.
    Ms. Roberts. That is right.
    Senator Craig. Certainly, Mr. Chairman, I thank you for 
holding this hearing today. Let me ask unanimous consent that 
my statement be a part of the record. I thank you all for being 
here to testify today.
    We are grabbed up in the myth of Madison Avenue that 
somehow youth is the only thing that sells. Yet it is the 
senior community of America that has the largest chunk of 
disposable income today. Somehow I do not think they get the 
picture very well, or at least they get a picture that only 
they want to project, and I hope that we can adjust and change 
that some, at least by our bully pulpits and certainly you by 
yours.
    It would be very helpful, I think, to all of us to 
understand those kinds of balances. Dr. Butler, you had 
mentioned in your testimony that it is a myth that older 
Americans are affluent. About 70 percent of older American 
households have an annual income of less than 35,000. Have you 
done any forecasting of what the future household for baby 
boomers would be, at least what the future holds as it relates 
to income? Because while I have talked about general affluency 
and fixed incomes and those that do have spending capability, 
statistics do bear out a fact, and those that you have stated.
    Dr. Butler. Our center has not yet addressed it, but, as 
you know, with the declining economy and the problems in the 
stock market and 401(k)s, many of the baby boomers are feeling 
quite frightened and unprepared, and that means that the 
oldest, now 56, is just 9 years away from turning 65. So I 
think it is a topic, as you correctly imply, that must be 
addressed: the fear of growing older and the fear of growing 
older poor.
    Senator Craig. Well, we have seen a dramatic--let me put it 
this way. We are seeing a shift now in those that are older who 
are now choosing to work longer or work part-time to supplement 
their incomes, and while some might view that as negative, many 
who do it, while they first thought it was a negative 
experience, in my visits with them have found it a rejuvenating 
experience, that it kind of fills their life again. It gives 
them a kind of energy that they had experienced in maybe the 
peak of their career or the career they retired from earlier, 
and that, you know, if their health holds obviously, and many 
now it does, it is a new dynamic that we clearly need to think 
about and in that there is a frustration of bias also.
    Dr. Butler. Absolutely.
    Senator Craig. The question of working in the marketplace.
    Dr. Butler. If you imagine it were 1900, and the average 
life expectancy was 47, we might be discussing the prejudices 
against 50-year-olds and 55-year-olds and whether they can work 
or not. In truth, it is hard to imagine 69 million baby boomers 
with all that skill, all that experience and knowledge, sitting 
by idly, collecting Social Security, using Medicare, without 
continuing to contribute, and we are beginning to see a slight 
shift of people staying in the workforce longer, and living 
longer, they probably should, for their own best interest and 
the country's, indeed work longer.
    But we do find in our studies that only 20 percent of adult 
Americans know that Social Security phase-in to full 
eligibility has now been moved to 67. So many of them are 
operating on the assumption that they will get their retirement 
at 65. So we do have to have an educational effort here to try 
to address the issue of working longer and, of course, part of 
that will actually promote health. We know that being involved, 
having a purpose, does improve health.
    Senator Craig. Mr. Chairman, one last question, if I could, 
of Dr. Levy. How did you decide to do research on how the 
health of older adults is affected by negative images? What 
brought you to that?
    Dr. Levy. Initially, I became very interested in the topic 
when I spent some time in Japan. I noticed how differently it 
seemed like the elders were being treated in Japan. I started 
thinking, this country has the longest life span in the world; 
could there be some connection? So I think that is actually how 
I started becoming interested in this line of research.
    Senator Craig. OK. How are you using or how do you plan to 
use that kind of research?
    Dr. Levy. Well, I hope to continue to look at what is the 
mechanism, but also I think it is important to start thinking 
about how to actually change images of aging. I think that a 
good next step if, this kind of research continues to yield 
similar results, is to think about how we can actually promote 
the positive images of aging and teach skills for people to 
monitor the negative stereotypes.
    Senator Craig. Well, I have had the good fortune to spend 
some time in the Orient and I know that age is revered. Thank 
you all very much. Ms. Roberts, I too love Raymond. [Laughter.]
    [The prepared statement of Senator Craig follows:]

               Prepared Statement of Senator Larry Craig

    Good Morning. I want to thank Senator Breaux for holding 
this important hearing on the image of aging in the media and 
the marketing industry. It's important that we raise awareness 
of the problem of societal bias aging and old age in the 
country.
    Seniors are one of our greatest resources. We need to 
recognize the benefits that we all gain from our seniors' 
wisdom and experience.
    The unrealistic images of aging the media tends to portray 
are a negative influence on our aging population. We often see 
the stereotypical picture of the feeble, helpless senior in 
many commercials and ads. In fact, only 4.25 percent of seniors 
65 and older live in nursing homes. This statistic shows that 
the overwhelming majority of our seniors are living 
independently.
    It's so important to our aging population to have accurate 
representation in the media. Realistic messages targeted to 
seniors that actually show what its like to be a senior today--
strong, vital, contributing members of society will help to 
encourage seniors to take better care of themselves.
    The media and marketing industry are basing decisions that 
concern seniors on outdated consumer research. We need to do 
all we can to encourage these industries to devote more 
resources into studying demographics. It's vitally important 
that all industries accurately reflect changes in aging 
demographics, social demands and culture. With 77 million baby 
boomers approaching retirement age, this group is too important 
to ignore.
    More importantly, we need to broaden the definition of what 
it means to grow older in America. Its time we stop thinking of 
aging as the end of life, but as a continuation of living. Most 
of us are living longer, healthier, active and productive lives 
and its time the media and marketing industry start accurately 
reflecting how our seniors are living today.
    Again, I'd like to thank the Chairman for holding this 
important hearing and I look forward to hearing the testimony 
of our witnesses.

    The Chairman. Senator Stabenow, any questions?
    Senator Stabenow. Well, thank you, Mr. Chairman. I want to 
thank you first for holding this committee hearing. This is a 
very important topic and I appreciate your doing this. Thank 
you to everyone, and, Doris, I have thoroughly enjoyed your 
many roles over the years.
    Ms. Roberts. Thank you.
    Senator Stabenow. It is wonderful to have you here. Just a 
couple of observations, and I welcome any comments related to 
them. I find it very contradictory when we look at this 
situation. I agree with everything that has been said in terms 
of media portrayals, but we are also in a world where we go to 
constituents for support, and the majority of people who vote 
are older Americans, which I find interesting in the context of 
this discussion.
    There is great power in older Americans from the standpoint 
of voting and participating and putting people into office who 
make decisions that are very important regarding resources and 
whether we go to war and so on. It seems to me somehow we need 
to bring that power to bear in addressing some of the issues 
that you are talking about in a different kind of way.
    I was also thinking about the whole debate of what is 
elderly now? I look at my mother who is 76 and in two golf 
leagues, and uses a computer very effectively and watches C-
SPAN and debates me on every issue, and she does a wonderful 
job of being aware, and I do not consider her elderly in any 
sense of the word. She is a very vivacious woman.
    So I think our whole concept of what is elderly is 
changing, because we are talking about living longer, being 
healthier, and are viewing age 60, age 70, age 80 in a 
different light as we get older and are still very active and 
involved.
    When the Older Women's League did a study on Medicare, they 
talked about the fact that when we look at Social Security, and 
particularly Medicare, particularly for those over age 85, it 
is women, we see. So I know and I appreciate the comments 
today, because I think we are particularly looking at 
stereotypes of women, of older women, not in every case, but in 
many cases. Doris, you were talking about the really outrageous 
position that somehow a man in his sixties or seventies or even 
eighties ought to be married to a 20-year-old or 30-year-old. I 
hope he has got a lot of Viagra.
    But I guess I find it--I want to just say for the record--
that I really do believe that this is very much an issue for 
women, for older women, as a result of what the media is doing, 
and is something that women of all ages, I think, need to be 
concerned about.
    I think there is one exception, though, in advertising, 
that while we see advertising and the push for younger people 
in television and so on, that the fastest growing part of 
advertising is prescription drugs which is geared to older 
adults. I would just say as someone involved heavily in the 
issue of prescription drugs that I am concerned that we now see 
about two-and-a-half times more being spent by the 
pharmaceutical industry in advertising than on research. It is 
a very sales-focused industry now, very much focused on sales 
targeted to seniors for example, the purple pill.
    I think in some way this advertising feeds into image of 
aging in terms of medicine and the need to be younger and the 
need to take medicine and prescription drugs and all of these 
kinds of things, even though obviously there are many 
prescription drugs that are critical and lifesaving.
    But I believe very strongly that we need to be concerned 
about the sales and marketing end in the pharmaceutical 
industry now as it relates to prescription drugs, because this 
is an industry that understands where their target is, and are, 
I believe, driving up the prices of medicine as a result of 
heavily advertising and spending more on advertising. So I 
would welcome any comments there.
    I would just simply ask what you believe other than holding 
hearings, which are so significant in terms of the bully 
pulpit, are there other recommendations that you have for us 
that we should be focused on in order to address what I believe 
is going to continue to be a growing challenge and issue?
    The Chairman. Anybody have a comment on Senator Stabenow's 
statement?
    Mr. Kleyman. I could add a couple of notes. Thank you for 
asking that question. In terms of the news business, I mean, 
first, I think there needs to be more public attention to this 
issue, and the Special Committee on Aging has just made a great 
start on that. It needs to be followed up by advocates for 
older people across the country, and people individually have 
to begin to stand up and say they are mad as hell and will not 
take it anymore. But also, they have to begin to challenge the 
defensive economic arguments from the news industry.
    A second point I would like to make is that the news 
business itself in terms of ageism in the news needs to invest 
in more research to reassess their very skewed view of the 
numbers they are coming up with.
    For example, an article published by the Newspaper 
Association of America about a year ago reported that while 
only 40 percent of young adults in the United States read a 
newspaper everyday, the figure is much higher in other 
countries. For example, in Canada, it is 82 percent. Is that 
not interesting?
    One financial expert--let me add a note on that--the reason 
is that in other countries, they are finding that where the 
percentage of younger daily newspaper readers is higher, they 
found that newspapers are used much more in the family on a 
daily basis and in the schools than happens in the United 
States. So there is a solution to reaching younger viewers 
without denigrating older viewers.
    One financial expert in that article stated that 
``newspapers abroad do far more research to understand reader 
consumer behavior than publishers in the United States.'' In 
fact, they said it is as low as two cents per reader in the 
U.S. with some newspapers.
    A third point is that schools of journalism and mass 
communication really need to weigh in on aging and other cross-
cutting social issues that are under-covered in American 
journalism like sexism and the women's issues that are coming 
up.
    The Chairman. Dr. Butler. Let me get Dr. Butler in.
    Dr. Butler. I would like briefly to support Senator 
Stabenow's point that the issues of age are very much the 
issues of women. They may live now 5.4 years longer, but they 
pay a price of more chronic illness, more poverty, more elder 
abuse, and 80 percent of the individuals in nursing homes are 
women. So many of the negative attitudes toward age really 
focus very intensely upon women, and I think that is very 
important to emphasize that.
    The Chairman. I want to follow up on a point that Debbie 
Stabenow made with regard to it seems that with regard to the 
Congress and politicians who get elected by the masses, that we 
pay a great deal of attention to older Americans, and Debbie 
pointed out very correctly, because they vote.
    I mean that is the highest participatory segment of our 
population are older Americans. Younger Americans unfortunately 
do not vote. Therefore, Congress tends to pay a great deal of 
attention to older Americans for the very pragmatic reason as 
well as the esoteric correct reasons, but because they vote, 
and if you do not pay attention to them, they are not going to 
vote for you. You are not going to have a job.
    So it is a very pragmatic connection which you made with 
regard to elected officials, but it seems like there is a 
disconnect when it comes to the entertainment business and 
media and advertising, who do not pay attention to elderly, and 
what motivates them I would suggest is economics, and I think 
they have the false impression that we are going to target a 
segment of our population who spends the most money, and that 
is 18 to whatever. 18-35 category they seem to target. If you 
look at all the sitcoms with the possible exception of Doris 
Roberts, ``Everybody Loves Raymond,'' I mean almost all of 
those in prime time are basically young people in that 
category, and I think it is because of the economic ties.
    Let me ask somebody just for a little bit of a discussion 
on the ads that we saw. I mean before people spend millions of 
dollars, before Coca-Cola spends hundreds of millions of 
dollars running those ads, which you all rated as a very ageism 
negative ad toward how it portrayed older people, and the Midas 
commercial which was deplorable, they have had to test market 
those ads. They do not spend hundreds of millions of dollars 
without saying the ad is going to work.
    So the question is what do they find when they test market 
these ads that we find today as being very discomforting and 
not humorous and depicting seniors in a very negative way? Did 
they not test market those ads?
    Mr. Snyder. One would think that they would test market all 
their ads and, in fact, sometimes ads are test marketed, but 
they may not be test marketed to the right segment of the 
population. They are not test marketed against those who might 
be offended.
    The Chairman. So they test market in the Coca-Cola ad to 
the group of people they think drink coke and the people who 
buy mufflers.
    Mr. Snyder. One of the things that we are finding that is a 
problem with focus groups and research such as this is that 
people tend to give you the answers you want to hear when you 
are in that particular focus group. In fact, there is research 
now to support that when you are doing focus groups, people 
will respond positively toward what you are trying to get them 
to talk about, but when they actually are in the privacy of 
their own home, it is a different story.
    So the coke ad is funny because in this audience this 
morning, I know that a lot of people wanted to laugh, and they 
did not. Every time I play that ad in an audience, everybody 
breaks out laughing, and I tell them what is funny in a group 
setting is not funny in the privacy of your own home or in the 
privacy of your own mind, and it may be offensive to you, but 
because it is almost in a comedic situation, almost like it is 
a comedian standing up in front of the audience, where we have 
permission to laugh at ourselves, then it is OK.
    The Chairman. If you test marketed that ad or got a 
reaction from older Americans, what type of reaction would you 
expect from them?
    Mr. Snyder. Actually we have done some research on some of 
those ads, limited research, and we have gotten mixed 
reactions. It depends on where a person's values are. I will 
come back to that point. If the values do not allow them to be 
offended by it, then they will think it is a fine ad. What we 
find interesting is that the younger audiences are the ones who 
are offended by them the most.
    The Chairman. Oh, really.
    Mr. Snyder. Yes. That tends to be part of what we have 
seen. Some of the younger boomers and GenXers, they see that 
coke ad and they say that is offensive to older people. We have 
mixed reactions from older people, older individuals, about 
that particular ad. When it comes to the Zima ad and the other 
ads that we showed, clearly they are offensive to older 
individuals, and you wonder to yourself, I wonder, how did that 
ever get past the president of an organization, how did that 
get past the marketing director of that company? I will come 
back to this one very simple fact: we are the product of what 
we see on our airwaves everyday.
    We are so inundated with information that we receive 
continually, that we subliminally accept it somehow, and 
eventually it contributes to a lack of awareness. We have to 
raise awareness. It is not that younger people want to create 
ads that offend anybody. That is a fact, but we have to raise 
the awareness of a younger copy writer, a younger creative 
design person, so they have some sense of actually walking in 
that person's shoes as compared to making up a creation that is 
based on a story ``I heard in college.''
    The Chairman. Senator Stabenow.
    Senator Stabenow. Well, Mr. Chairman, when you were 
speaking about the economics, and I am sure the decisions are 
being made for economic reasons, but I find it still strange, 
because when I think of my 22-year-old daughter, I spend a 
whole lot more money than she does. I mean the idea that they 
are marketing to 18-year-olds or 22-year-olds because they have 
more disposable income is not rational. I am not sure. I find 
this whole thing very perplexing, even though I am sure that is 
what they are thinking. I mean it has to be economics.
    The other point, just a fact I just want raise, because I 
want to go back to the advertising on prescription drugs. More 
was spent last year on advertising Vioxx than on Pepsi, Coke or 
Budweiser beer.
    Mr. Snyder. Yes.
    Senator Stabenow. Did you want to comment?
    Mr. Snyder. I did want to say, and I have forgotten what I 
was going to say. So that is fine.
    Senator Stabenow. Well, we were talking about the 18 to 22-
year-olds.
    Mr. Snyder. Oh. Companies are for whatever reason, and 
there has been research conducted overseas as well that 
supports this same notion, that companies are mesmerized by 
capturing the youth market, because they feel that if they do 
not grab the youth market now, they will lose market share in 
the future, and they assume, companies have assumed that people 
over the age of 50 are theirs for life.
    In other words, I really do not have to market to that 
person because we are going to get you anyway. You are set in 
your ways--stereotype--you are not going to change, you are 
always going to buy a product. We also have research--there is 
research that shows that that is not the case, that people over 
50 are very willing to change products given the right 
information.
    Senator Stabenow. Interesting.
    The Chairman. One of the networks just said, and they were 
contacted on this whole question of ageism, and they reported 
asking AARP about their thoughts about the ageism problem that 
we are talking about here today, and their response apparently 
was that ageism is not that big of a problem.
    Do you all agree with them on that? I mean are we just 
doing this and we should not be doing it? If AARP tells me it 
is not a problem, should we just shut this hearing down and go 
somewhere else?
    Mr. Snyder. I will address that, and let the rest of the 
panel address it as well. I am not sure who they spoke with at 
AARP, but I cannot imagine that AARP would take that position. 
So I would ask them to check their source and go back and find 
out.
    The Chairman. Dr. Butler, do you have any thoughts on it?
    Dr. Butler. I have a very similar reaction. I think that I 
would call Bill Novelli, who is the head of AARP, and ask him 
directly. I doubt very much if they would take that position.
    The Chairman. Ms. Roberts, what about your thoughts about 
AARP on that? Do you have any?
    Ms. Roberts. Well, I question this. If there were laws 
protecting discrimination against sexism and racism and 
religious freedom, why is there not a law to protect the, you 
know, the horror of the way we are described in every magazine 
and newspapers and on television and movies? Why cannot that 
exist? Why cannot we start there? Because it is a powerful 
thing that we are dealing with. I mean it is insane.
    The Chairman. I mean there are laws against age 
discrimination, but I mean apparently on the ways that 
entertainment business and all of this handles these things, it 
does not run contrary to the laws on the books. Anybody have 
any thoughts about this with regard to the existing laws on the 
book with regard to age discrimination? They are there, but 
apparently we are seeing a lot of factual discrimination.
    Dr. Butler. Even in the Universal Declaration of Human 
Rights of the United Nations--it goes back to 1948--age was 
left out. For various reasons, it has been reintroduced 
recently, particularly by the former president of Ireland, Mrs. 
Robinson, who introduced the concept of looking at age 
discrimination and age imagery within the world family. So I 
think there are beginning to be some people that are beginning 
to address this.
    The Chairman. I would point out, too, my staff has just 
provided me with information that pointed out in Los Angeles, 
Ms. Roberts, that AARP has joined as co-counsel in 23 class 
action age bias lawsuits that have been filed in California 
state court by television writers age 40 and over against 
television networks and studios and talent agencies alleging 
workplace age discrimination. I mean these are writers 40 years 
of age having to go to court to fight age discrimination which 
shows you the extent of the problem.
    So I mean they are active in that. I mean they have asked 
the court to dismantle the alleged discriminatory hiring system 
and asking for more than $200 million in damages.
    Well, I think that this has been a very important hearing 
in my perspective. I think that we have heard some excellent 
testimony. I mean, Dr. Levy, your point really being, I think, 
a positive attitude is a very positive contributing factor to 
how long we live, and people who have that attitude, in fact, 
are living longer despite some of the images that they may have 
portrayed to them, and everybody's testimony has been so very 
helpful.
    Ms. Roberts, again, you have access to the bully pulpit and 
thank you for taking of your own personal time to talk to us 
about something you believe in very strongly. Sometimes it is 
very easy if you are comfortable to just remain comfortable and 
not rock the boat, but as your grandchildren said, you are a 
rocker.
    Ms. Roberts. I am and I am glad to know that I have more 
than 7 years of my life to look forward to.
    [Laughter.]
    The Chairman. Well, with that, this committee will be 
adjourned and thank our witnesses for being with us.
    [Whereupon, at 10:50 a.m., the committee was adjourned.]

                                   - 

</pre></body></html>
